January 3, 2011

VINCENT H. DEVITO JR
VICE PRESIDENT, CONTROLLER

SUBJECT: Management Advisory – Fiscal Year 2010 Quality of Postal Service
         Financial Testing and Compliance Results (Report Number FF-MA-11-001)

This report presents the results of our review of the quality of Financial Testing
Compliance (FTC) work at business mail acceptance (BMA) units, postal retail units
(PRU), and mail processing centers (Project Numbers 10BD005FF000 and
10BD005FF001).1 The objectives of our report were to determine if the FTC review
results agreed with the U.S. Postal Service Office of Inspector General (OIG) results
and to evaluate the quality of FTC work. We conducted this review in support of the
independent public accounting firm’s (IPA) overall audit opinion on the U.S. Postal
Service’s internal controls over financial reporting. See Appendix A for additional
information about this review.

The Postal Service must prepare and submit annual reports on Sarbanes-Oxley Act of
2002 (SOX) compliance to the Postal Regulatory Commission (PRC) beginning with
fiscal year (FY) 2010. To comply with SOX, the postmaster general and the chief
financial officer must report on the effectiveness of the Postal Service’s internal controls
over financial reporting. FTC tests key financial reporting controls and senior Postal
Service leaders use the results to identify and correct internal control deficiencies. The
results of the Postal Service’s overall SOX assessment are reported to the PRC. The
Postal Service’s Financial Control and Support (FC&S) group oversees the work of the
FTC.

Conclusion

FTC did not always report all exceptions they identified during their reviews, causing
their results to not always be consistent with the OIG’s results. Further, we were
sometimes unable to determine if the OIG’s and FTC’s results were consistent because
of insufficient FTC supporting documentation. We also noted other working paper
documentation issues, such as FTC not providing all sampling methodology
documentation to the OIG; however, this did not affect our ability to determine if FTC’s

1
 Project Number 10BD005FF000 was initiated to review the results of FTC’s work conducted February through July
2010. Project number 10BD005FF001 was to review the results of FTC’s July through September 2010 work on the
effectiveness of management’s remediation efforts conducted.
Fiscal Year 2010 Quality of Postal Service Financial Testing                                          FF-MA-11-001
 and Compliance Results


and the OIG’s results were consistent. Most of the issues we identified were in reviews
FTC conducted early in their testing schedule. Given that FTC was a newly formed
group and analysts were learning new jobs and implementing new review programs, we
expected these results. Throughout the year, we communicated these issues to the
FC&S manager. In later reviews, we found that there were fewer issues and improved
FTC reviews.

Consistency and Quality Issues Identified but Improvements Made

While we identified a number of issues during our examination of FTC reviews, the
number of examinations with issues declined. Table 1 presents the OIG’s examination
results by FTC testing period.

                                   Table 1: OIG Examination Results

                                      Number of Examinations with Issues OIG Identified in FTC
                                                       Reviews (by review period)
                                                    FTC Testing                         Post-
                                           February - September 2010               Remediation
                                                                       2
                                              (of 60 OIG Examinations)                Testing3
                                             February-May        June-September     August and
  OIG Examination Results                          2010                  2010     September 2010
        Categorized by                          (of 34 OIG            (of 26 OIG      (of 24 OIG
          Significance               Total    Examinations)         Examinations)   Examinations)
 Level I - FTC results not
 consistent with the OIG’s
                                       18               15                     3                       3
 results (for example, not all
 exceptions were reported).
 Level II - FTC supporting
 documentation was
 insufficient to determine             17               12                     5                       0
 OIG agreement with FTC
 conclusions.
 Level III - Supporting
 documentation issues that
 did not cause the FTC to
                                       35               30                     5                       0
 incorrectly report results or
 to be inconsistent with OIG
 results.
Source: OIG Analysis




2
  Each FTC review could have one or more exceptions in each of levels I, II and III.
3
  The Postal Service performs remediation, or correction of a design or operating deficiency, for the internal control
gaps identified during process documentation and operating effectiveness gaps identified during testing. FTC re-
tested controls they had previously determined as failed after the Postal Service remediated those controls.




                                                             2
Fiscal Year 2010 Quality of Postal Service Financial Testing                   FF-MA-11-001
 and Compliance Results


FTC’s Results Were Not Always the Same as the OIG’s Results

FTC results were not always consistent with OIG results. For example, in some reviews,
FTC did not always report the exceptions they noted during their reviews, causing their
results to differ from the OIG’s results.

FTC analysts stated these differences occurred primarily due to an FTC analyst error or
oversight, or because the FTC analyst did not consider the exceptions reportable. The
OIG and the IPA considered all exceptions reportable and communicated that to the
Postal Service.

We identified this issue primarily in the early FTC reviews:

       In 15 of 34 FTC reviews conducted from February through May 2010.
       In three of 26 FTC reviews conducted from June through September 2010.
       In three of 24 post-remediation reviews.

Insufficient Documentation

FTC analysts did not always provide supporting documentation sufficient for the OIG to
determine consistency between FTC- and OIG-reported results. For example, we noted
FTC analysts did not always document interviews with management and unit personnel
or document whether they confirmed that permit holder permit accounts were current
and up-to-date. In addition, the working papers that FTC provided did not include
documentation to support the type of mail verifications they performed; inquiries of BMA
management and personnel to determine critical times and identification of BMA
personnel by tour; or an explanation of whether they used required reports to execute
the steps.

FTC analysts stated these issues generally occurred due to an FTC analyst error or
oversight in documenting work performed. Additionally, in some cases, FTC personnel
stated they did not include system reports in their supporting documentation because
the reports were too large. As a result, we were unable to determine whether the FTC
analysts executed the program properly or how they reached their conclusions. While
we agree that some reports may be too large to include in supporting documentation,
FTC analysts should document what reports they used, how they used them, and the
reason for not including some reports in the working papers. It is critical to carefully note
and report the work performed to ensure those evaluating the work can determine
whether the conclusions reached are fully supported so that management can
confidently report on the state of internal controls.

We again identified this issue primarily in the following early FTC reviews:

       Twelve of 34 FTC reviews performed from February through May 2010.
       Five of 26 FTC reviews performed from June through September 2010.




                                                      3
Fiscal Year 2010 Quality of Postal Service Financial Testing                                      FF-MA-11-001
 and Compliance Results



We found no instances in any of the 24 post-remediation reviews.

Other Documentation Issues

During our examinations, we identified instances in which working paper documentation
could be improved. However, the documentation was sufficient for us to reach the same
conclusions as FTC. For example,

       Mailing Activity reports4 were not annotated to indicate days tested.

       Postage statements statistically selected for testing were replaced with other
        postage statements without explanation.

       The number of postage statements reviewed per the Mailing Activity report was
        different from what was in FTC documentation.

       Spreadsheets did not contain legends to explain notations.

       Supporting documentation showed that FTC reviewed one accountability while
        other supporting documentation showed they reviewed two.

We identified these issues in 30 of 34 FTC reviews conducted from February through
May 2010 and in five of 26 FTC reviews conducted from June through September 2010.
We did not note any instances during the 24 post-remediation reviews. Although FTC
managers provided a variety of causes for the above issues, we believe the overall
cause was the challenge arising from forming the new FTC organization.

It is critical that FTC report all exceptions noted during their reviews and fully document
all work performed. Without this critical information, management will be unable to
assess the true nature of control failures and will be severely limited in their ability to
take corrective action.

After the first few reviews, the OIG provided feedback to the FC&S manager regarding
the issues noted. Based on that feedback, FTC revised their review programs and
suspended their reviews for 1 week (in April 2010) to provide additional training to the
FTC analysts. After the training, we identified these types of issues less frequently. In
addition, FC&S took corrective action to address the issues we brought to their attention
throughout the review process. Because the number of issues we identified significantly
declined beginning with the June FTC reviews, we are not making recommendations in
this report.


4
 The PostalOne! Mailing Activity Report provides the detailed mailing data by permit and mailing date. FTC uses this
data to determine postage statement sample size and statement selection.




                                                         4
Fiscal Year 2010 Quality of Postal Service Financial Testing               FF-MA-11-001
 and Compliance Results


Management’s Comments

Management agreed with the findings and reiterated that they took corrective actions
throughout the year. See Appendix B for management’s comments in their entirety.

Evaluation of Management’s Comments

We agree with management’s comments that corrective actions were taken throughout
the year.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Linda Libician-Welch, director,
Field Financial – West, or me at 703-248-2100.

 -Signed by Linda J. Libician-Welc
VERIFY authenticity with ApproveI



for
John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Joseph Corbett
    Steven R. Phelps
    Corporate Audit and Response Management




                                                      5
Fiscal Year 2010 Quality of Postal Service Financial Testing                 FF-MA-11-001
 and Compliance Results


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Accountability and Enhancement Act of 2006 required the Postal Service to
comply with Section 404 of SOX by September 30, 2010. SOX requires management to
assess its internal controls over financial reporting annually and obtain an opinion
regarding the effectiveness of those controls from its IPA.

In addition to Section 404, the Postal Service must comply with other sections of SOX
that are closely associated with that section. For example, Section 302 requires the
chief executive officer and chief financial officer to certify that financial statements and
other financial information in the quarterly and annual reports fairly present, in all
material respects, the financial condition, the results of operations, and the cash flows of
the Postal Service. The chief executive officer and chief financial officer must also
certify and that they are responsible for establishing and maintaining disclosure controls
and procedures as well as internal controls over financial reporting. The Postal Service
submits an annual assessment on the effectiveness of its internal controls to the PRC,
who monitors and manages Postal Service compliance with SOX.

The Postal Service created a SOX Program Management Office (PMO) within the
Finance organization to lead the SOX implementation efforts. The FTC, established in
late FY 2009, reports to the PMO through the FC&S manager. The FTC consists of 22
teams with about 179 employees divided into three divisions — East, Central, and
West. FTC analysts test the effectiveness of key financial controls in the field in support
of SOX compliance for PRUs, BMA units, and plant verified drop shipments (PVDS) at
mail processing centers and post offices. The FTC also tests controls that management
has remediated to determine if the corrective action is effective. In FY 2010, the FTC
conducted PRU and BMA testing from January through July 2010 and PVDS testing in
September 2010. In addition, in August 2010, the FTC conducted BMA re-testing on
controls that management had remediated.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our review were to determine whether the FTC’s results agreed with
the OIG’s results and to evaluate the quality of the FTCs’ work. We conducted this
review in support of the IPA’s overall audit opinion on the U.S. Postal Service’s internal
controls over financial reporting. Specifically, we examined the FTC’s testing of key
financial reporting controls developed for evaluating SOX compliance.

To accomplish our objectives, we initially planned to perform this work in conjunction
with our financial installation audits of Post Offices (PO) (Project Number
10BD001FF000) and business mail entry units (BMEU) (Project Number
10BD002FF000) in support of the annual audit of the financial statements. However, in
consultation with the IPA, we decided to maintain separate samples for the financial




                                                      6
Fiscal Year 2010 Quality of Postal Service Financial Testing                                        FF-MA-11-001
 and Compliance Results


installation work and the examinations of the FTC reviews. Thus, we used three
approaches to examine the FTC reviews:

        Desk examinations during which we reviewed FTC working papers only.

        On-site examinations during which we reviewed FTC working papers and
         conducted limited re-testing of FTC tested controls.

        Concurrent examinations during which we were on-site at the same time as the
         FTC and observed FTC analysts conducting their reviews.

We judgmentally selected 84 FTC reviews for examination as shown in Table 2.

             Table 2: Number and Type of OIG Examinations of FTC Reviews

                                  FY Quarter in               Type and Number of OIG Examinations
                                   Which FTC
                                  Performed the
 Type of FTC Review                 Reviews                   Desk       On-Site       Concurrent        Total
 PRU                                    II, III                11          11              0              22
 BMA                                 II, III, IV               11          11              6              28
 PVDS                                     IV                    0           0             10              10
 Post Remediation BMA                     IV                    0           0             24              24
 Totals                                                        22          22             40              84
Source: OIG Analysis

We conducted this review from March 2010 through January 2011 in accordance with
the Quality Standards for Inspections.5 We discussed our observations and conclusions
with management officials on December 16, 2010, and included their comments where
appropriate. We assessed the reliability of computer-generated data by verifying it to
source records. We determined that the data were sufficiently reliable for the purposes
of this report.

PRIOR AUDIT COVERAGE

The OIG did not identify any prior audits or reviews related to the objective of this audit.




5
  The President’s Council on Integrity and Efficiency (PCIE) and the Executive Council on Integrity and Efficiency
(ECIE) last promulgated these standards in January 2005. Since then, The Inspector General Act of 1978 as
amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections are not amended to
reflect adoption by the CIGIE. As a result, we still reference the PCIE and ECIE.




                                                          7
Fiscal Year 2010 Quality of Postal Service Financial Testing   FF-MA-11-001
 and Compliance Results


                         APPENDIX B: MANAGEMENT’S COMMENTS




                                                      8
